No. 19-990

In the Supreme Court of the United States
__________________
SOUTHERN ILLINOIS STORM SHELTERS,
INCORPORATED, et al.,
Petitioners,
v.
4SEMO.COM, INCORPORATED,
a Missouri Corporation,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________
BRIEF IN OPPOSITION
__________________
Randall D. Grady
Counsel of Record
Charles S. Kramer
(also on brief)
Riezman Berger, P.C.
7700 Bonhomme Ave. 7th Floor
St. Louis, MO 63105
314-727-0101
314-727-0416 (Fax)
grady@riezmanberger.com
ckramer@riezmanberger.com
Attorneys for Respondent
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules,
Respondent 4SEMO.Com, Inc. states that it has no
parent company and no publicly held corporation owns
10% or more of its stock.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . 1
Corrections to Petitioners’ Statement of the Case
and “Facts” Asserted in Argument. . . . . . . . . . . . 1
1. PETITIONERS’ STATEMENT OF THE CASE
AND PURPORTED “FACTS” REFERENCED IN
ARGUMENT INCLUDE SEVERAL
STATEMENTS THAT ARE INCORRECT AND
FALSE, AND MISSTATE THE FINDINGS OF
THE COURTS BELOW AND THE RECORD. . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. PETITIONERS’
FIRST
POINT
OF
ARGUMENT, REGARDING THE SO CALLED
MCCARTHY FACTORS, IS PROPERLY
REJECTED AND THE REQUESTED WRIT
DENIED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. The Instant Case Does Not Present an
Appropriate Platform for Review, Because
the Argument Asserted by Petitioners was
Waived. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

iii
B. This Case Does Not Provide an Appropriate
Platform for Review of The Point Asserted
Because It Does Not Involve the
Circumstance With Respect to Which
McCarthy Suggests the Asserted Factors
Should Be Considered, In That It Does Not
Involve A Question of Whether a Trademark
Adopted by A Distributor of a Manufacturer’s
Products is Owned by The Manufacturer or
Distributor. . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
II. PETITIONERS’ WRIT IS ALSO PROPERLY
DENIED WITH RESPECT TO THEIR SECOND
POINT OF ARGUMENT, CONCERNING THE
ANALYSIS TO BE APPLIED WHEN
CONSIDERING THE RIGHTS OF GOOD
FAITH, JUNIOR TRADEMARK USERS,
BECAUSE THE ARGUMENT WAS ALSO
WAIVED AND THE UNCONTESTED
FINDINGS OF FACT ARE THAT
PETITIONERS WERE NOT GOOD FAITH
JUNIOR USERS. . . . . . . . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv
TABLE OF AUTHORITIES
CASES
Hanover Star Milling Co. v Metcalf,
240 U.S. 403 (1916). . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITIES
2 McCarthy on Trademarks §16:48 . . . . . . . . . . . . . . 8
West’s Encyclopedia of American Law (2nd Edition)
(2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1
BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI
Corrections to Petitioners’ Statement of the
Case and “Facts” Asserted in Argument
1. PETITIONERS’ STATEMENT OF THE CASE
AND PURPORTED “FACTS” REFERENCED
IN ARGUMENT INCLUDE SEVERAL
STATEMENTS THAT ARE INCORRECT AND
FALSE, AND MISSTATE THE FINDINGS OF
THE COURTS BELOW AND THE RECORD.
The Petitioners’ Petition for Writ of Certiorari omits
material factors pertinent to the Court’s review of the
Petition, including the alternative nature of the Circuit
Court holdings Petitioners seek to address, and sets
forth statements in their Statement of the Case in
Arguments which misstate the actual, unchallenged,
findings of fact of the District Court, and are patently
false.
First, Petitioners do not mention at all the primary
basis on which the Circuit Court rejected the
arguments which form the basis of each of the Points of
Argument asserted in the instant Petition -- that the
arguments were never presented to the District Court
and were waived for purposes of appeal.
See
4SEMO.Com, Inc. v Southern Illinois Storm Shelters,
Inc. et al, Nos. 18-1998 &18-2095 (7th Cir) (hereafter
“7th Circuit Opinion”), Appendix A at App.3, App.11,
and App.13. The Petition only asks the Court to use
its discretionary review to address secondary,
alternative holdings, included solely for completeness,
and does so without informing the Court of the

2
alternative holding nature of the rulings Petitioners
challenge.
Second, Petitioners expressly state they are not
contesting the District Court’s Findings of Fact in their
Petition, Petition for Writ of Certiorari, p 5, and
Petitioners did not challenge those findings on the
Circuit Court level, 7th Circuit Opinion, Appendix A at
App. 3.
Yet, Petitioners nonetheless go on to
inaccurately portray, misstate and ignore those very
Findings of Fact, repeatedly, and base their arguments
on those false statements. Although by no means all
of the Petitioners’ misstatements, some of the most
material, false statements set forth in the instant
Petition are the following:
a. Petitioners falsely and repeatedly assert that
this case involves a wholesale level trademark
created by Respondent 4SEMO.Com, Inc. (hereafter
“4SEMO”) as an exclusive distributor of Petitioners,
as manufacturer, in the course of such a
distributorship relationship. In actuality, the nonappealed Findings of Fact of the District Court
conclusively establish 4SEMO was never a
distributor for Petitioners, and that this case
involves the creation of retail level marks by
4SEMO, prior to any agreements with Petitioners,
for use in connection with 4SEMO’s own retail level
sales and installations of storm shelters to
consumers, which 4SEMO later licensed to
Petitioners for use as similar retail marks, solely to
be used in conjunction with Petitioners’ retail sales
and installations in an adjoining geographic area.
See 4SEMO.com Incorporated v Southern Illinois

3
Storm Shelters, Inc. et al., No. 3:313-cv00297
DRH/SCW (S. Ill), Findings of Fact (hereafter “D.
Ct. FOF”) ##30 -78, Appendix C, at App.82-93.
b. Petitioners also falsely assert their use of
4SEMO’s retail marks as widespread wholesale
level marks was use as a good faith, junior user. In
actuality, the non-appealed Findings of Fact of the
District Court conclusively establish that such use
by Petitioners was a use in contravention of the
license they received from 4SEMO, without
4SEMO’s knowledge or permission, and was a
knowing, willful and intentional misuse of 4SEMO’s
marks. See D. Ct. FOF ##85-87 Appendix C, at App
93-94.
c. Petitioners also falsely state 4SEMO created and
became owner of both the word mark and logo here
in issue after entering into an agreement with
Petitioners.
In actuality, the non-appealed
Findings of Fact of the District Court conclusively
establish that 4SEMO was selling storm shelters at
retail, and created the marks at issue as its own
retail marks, before entering into an agreement
with Petitioners to carry Petitioners’ products in its
dealership. Compare D. Ct. FOF ##30 -78,
Appendix C, at App.82-92 (4SEMO adopted and
used mark in commerce at least as early as April
2005) with D. Ct FOF #58, Appendix C, at App.87
(4SEMO entered into dealer agreement with
Petitioners on May 5, 2015).

4
d. Petitioners similarly falsely state that 4SEMO
was aware that Petitioners were using 4SEMO’s
marks improperly. In actuality, the non-appealed
Findings of Fact of the District Court conclusively
establish 4SEMO was only aware of the limited use
of the marks that was permitted by the license
4SEMO gave Petitioners, and that 4SEMO was
NOT aware of the Petitioners’ broader improper use
until it was discovered by 4SEMO’s marketing
consultant, at which point 4SEMO immediately
demanded such usage stop. See D. Ct. FOF ##85-91,
Appendix C, at App.93-95.
e. Similarly, although not pertinent to any of the
matters they raise in the Petition for Writ of
Certiorari, the Petitioners make the false,
gratuitous, statement that no actual confusion was
ever shown to result from their misuse of 4SEMO’s
marks. Again, the record reflects, and the District
Court held, that actual confusion did exist, and
Petitioners’ contrary statement is a blatant
disregard for the District Court’s Findings of Fact,
of which Petitioner and its counsel are clearly
aware. See D. Ct. FOF ##118, Appendix C, at App.
101.1

1

The District Court also correctly noted, as a legal conclusion, that
actual confusion was established as a matter of law but, in any
event, where, as here, an alleged infringer uses the identical mark
as the trademark owner, confusion is presumed and need not be
separately established. Appendix C, at App 107. Petitioners also
intentionally misrepresent this holding as well.

5
f. In addition, when referencing contentions and
arguments Petitioners claim they asserted below, as
if they are properly considered by this Court,
Petitioners fail to inform this Court that the
District Court spent two and a half pages of its
Memorandum and Order addressing the lack of
credibility of Petitioners’ witnesses, and the reasons
for the Court’s rejection of their testimony. See
4SEMO.com Incorporated v Southern Illinois Storm
Shelters, Inc. et al., No. 3:313-cv00297 DRH/SCW
(S. Ill),, Appendix C, at App. 75-77
g. Finally, in an apparent attempt to garner
undeserved and unfounded sympathy, Petitioners
simply assert in their Petition that they will be
somehow forced into bankruptcy if their writ is not
granted and relief provided.
However, this
contention is also not supported by, or even
mentioned in any facts of record or any holding of
any Court.2

2

Petitioners ask the Court to simply accept their word that they
cannot pay the judgment, despite the fact that the damage award
is based on the actual amounts received by Petitioners, over ten
(10) years, from only one product, of their multi-product company,
which Petitioners characterize as a small town operation. If the
unsupported assertion of financial risk is true, where did the
money go?

6
ARGUMENT
I. P E TITIONE R S ’
FIRST
POINT
OF
ARGUMENT, REGARDING THE SO CALLED
MCCARTHY FACTORS, IS PROPERLY
REJECTED AND THE REQUESTED WRIT
DENIED.
A. The Instant Case Does Not Present an
Appropriate Platform for Review Because
the Argument Asserted by Petitioners was
Waived.
Petitioners’ first point of Argument takes issue with
what they call the Seventh Circuit’s rejection of their
argument that a so-called McCarthy Multi-Factor Test
should be applied to the instant case. As noted above,
however, the 7th Circuit’s first and primary basis for
overruling the point asserted was that the argument
had been waived because it was never raised at trial.
Appendix A at App.3, App.11, and App.13. Petitioners
do not request this Court to review the Appellate
Court’s finding that their argument was waived, and
indeed would have no grounds to do so. Accordingly, as
a primary matter, this case is not an appropriate
vehicle for reviewing Petitioners’ First Point of
Argument since, regardless of the ruling of this Court,
the ultimate result would still be the affirmance of the
7th Court’s primary, first basis for its holding - that the
arguments have been waived.

7
B. This Case Does Not Provide an Appropriate
Platform for the Review of The Point
Asserted Because It Does Not Involve the
Circumstance With Respect to Which
McCarthy Suggests the Asserted Factors
Should Be Considered, In That It Does Not
Involve A Question of Whether a
Trademark Adopted by A Distributor of a
Manufacturer’s Products is Owned by The
Manufacturer or Distributor.
As Petitioners themselves state and repeatedly
mention, Professor McCarthy has suggested that the
factors noted by Petitioners be considered when
determining ownership of a wholesale level trademark,
developed by an exclusive distributor of a
manufacturer’s product, in the course of its exclusive
distributor relationship with the manufacturer. See
Writ of Prohibition, P13-17. However, the instant case
does not involve a manufacturer’s distributor, let
alone an exclusive one, and does not involve a
wholesale level trademark, or a trademark created
after the establishment of the relationship between the
parties. As discussed above, the Courts below have
found, as a factual matter, that 4SEMO developed its
marks as retail marks, for use in connection with its
sale and installation of storm shelters to end user,
retail customers, prior to 4SEMO’s dealership
agreement with Petitioners and was a dealer, not a
distributor.3 The “McCarthy test” which Petitioners

3

Unlike 4SEMO, a distributor is “a wholesaler, an individual,
corporation or partnership buying goods in bulk quantities from a
manufacturer at prices close to the cost of manufacturing them

8
ask the Court to evaluate and potentially adopt, is not
applicable to the facts conclusively found to exist in
this case. In fact, section 16:48 of the McCarthy
treatise, the same treatise and section from which
Petitioners’ factors are taken, makes this expressly
clear, specifically supporting the District Court’s and
7th Circuits’ rulings in the context of the facts here in
issue – where a dealer develops a retail level mark
See 2 McCarthy on Trademarks §16:48 (“When a dealer
buys goods from a manufacturer and applies or has
someone else apply the dealer’s own “merchant's mark”
to the goods, the dealer, not the manufacturer, is the
owner of such a trademark”).
Accordingly, even if and to the extent the McCarthy
factors are important in the context of an exclusive
distributor developing a wholesale trademark in the
course of its distributorship relationship with a
manufacturer, that importance does not militate in
favor of granting the instant writ. That is simply not
the situation at bar. The Petitioners’ writ is thus also
properly denied as to Petitioners’ first point of
Argument, because it raises an issue not involved in, or
relevant to, the case in which they attempt to raise the
point.

and reselling them at a higher price to other dealers, or to various
retailers, but not directly to the general public.” West’s
Encyclopedia of American Law (2nd Edition) (2008). Retrieved
February
25
2020
from
https://legaldictionary.thefreedictionary.com/Distributor

9
II. PETITIONERS’ WRIT IS ALSO PROPERLY
DENIED WITH RESPECT TO THEIR SECOND
POINT OF ARGUMENT, CONCERNING THE
ANALYSIS TO BE APPLIED WHEN
CONSIDERING THE RIGHTS OF GOOD
FAITH, JUNIOR TRADEMARK USERS,
BECAUSE THE ARGUMENT WAS ALSO
WAIVED AND THE UNCONTESTED
FINDINGS OF FACT ARE THAT
PETITIONERS WERE NOT GOOD FAITH
JUNIOR USERS.
Petitioners’ Second Point of Argument asks this
Court to grant certiorari to address questions related
to the rights of good faith, junior users of a trademark.
Once again, however, the argument was not raised to
the District Court and was waived. 7th Circuit Opinion,
Appendix A, at App.13.
Further, despite their
acknowledgement that they did not challenge, and are
not challenging, the District Court’s findings of fact,
Petitioners present an argument that relies on factual
contentions expressly rejected by the Court below.
Contrary to the statements in Petitioners’ Petition, the
unappealed, fully supported, findings of the Courts
below are that Petitioners were not good faith junior
adopters, but were rather licensees of 4SEMO who
knowingly, willfully, and intentionally infringed on
4SEMO’s marks when they used the marks in manners
grossly beyond the limited rights granted by license,
without 4SEMO’s knowledge or permission. See D. Ct.
FOF ##85-87, Appendix C, at App 93-94.

10
Indeed, on page 19 of their Petition, Petitioners
virtually acknowledge that their argument
intentionally misstates the record, stating that their
contention that the record firmly supports their belief
that they acted in good faith is contrary to the District
Court’s non-appealed findings of fact. See Petition for
Writ of Certiorari, p 19-20 (claiming record support
“despite the District Court’s adverse findings of
fact”).
In this case, the Petitioners were specifically found
to be intentional, willful, and knowing infringers, not
good faith junior adopters. D. Ct. FOF ##85-87,
Appendix C, at App 93-94. This case is thus also not a
proper vehicle for addressing any issues related to the
rights of a good faith junior adopter of a trademark,
since no such junior user existed in this case.
Moreover, contrary to Petitioners’ arguments, given the
findings of fact in this case, the District Court’s and 7th
Circuit’s rulings are completely consistent with this
Court’s prior holdings in Hanover Star Milling Co. v
Metcalf, 240 U.S. 403 (1916) and its progeny.
The Petition for Writ of Certiorari is properly
denied as to Petitioners’ Second Point of Argument as
well.
CONCLUSION
The Petitioners’ Petition for Writ of Certiorari does
not present matters appropriate for, or of sufficient
significance, to merit briefing on the merits. The 7th
Circuit properly affirmed the District Court’s bench
trial judgment, based on the facts of record as
determined by the District Court, which were amply

11
supported by the record and not challenged by
Petitioners on appeal. The arguments that Petitioners
ask this Court to review were never raised to the
District Court and were thus waived, and only seek to
raise issues that are suggested for consideration in
circumstances wholly distinct from and not presented
by this case. The instant case does not involve a
wholesale level trademark developed by a
manufacturer’s distributor, nor an innocent junior user
of a similar trademark. The Petition for Writ of
Certiorari is properly denied as to all Points.
Respectfully submitted,
Randall D. Grady
Counsel of Record
Charles S. Kramer
(also on brief)
Riezman Berger, P.C.
7700 Bonhomme Ave. 7th Floor
St. Louis, MO 63105
314-727-0101
314-727-0416 (Fax)
grady@riezmanberger.com
ckramer@riezmanberger.com
Attorneys for Respondent

